ING OF TERMINATED EMPLOYEES AT LOS ALAMOS
NATIONAL LABORATORY


              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Security and Other Issues Related to
Out-Processing of Employees at
Los Alamos National Laboratory




DOE/IG-0677                                    February 2005
SECURITY AND OTHER ISSUES RELATED TO OUT-
PROCESSING OF EMPLOYEES AT LOS ALAMOS NATIONAL
LABORATORY




TABLE OF
CONTENTS



                 OVERVIEW

                 Introduction and Objectives    1

                 Observations and Conclusions   1


                 DETAILS OF FINDINGS

                 Out-Processing Procedures      3

                 Performance Measures           8


                 RECOMMENDATIONS                8


                 MANAGEMENT COMMENTS            9


                 INSPECTOR COMMENTS             9


                 APPENDICES

                 A. Scope and Methodology       10

                 B. Management Comments         11
Overview

INTRODUCTION       The core mission of the Department of Energy’s (DOE’s) Los
AND OBJECTIVES     Alamos National Laboratory (LANL) is to enhance global security,
                   develop technical solutions to reduce the weapons of mass
                   destruction threat, and improve the cold war environmental and
                   nuclear materials legacy. Given its national security mission,
                   LANL is one of DOE’s most sensitive sites. LANL is operated by
                   the University of California (UC) and administered by the National
                   Nuclear Security Administration (NNSA). It directly employs
                   approximately 7,500 UC employees. Approximately 800 UC
                   employees terminate employment at LANL annually.

                   During previous reviews by the Office of Inspector General,
                   concerns were raised about the adequacy of internal controls over
                   property at LANL. Further, during a February 26, 2003,
                   congressional hearing before the House Energy and Commerce
                   Committee’s Subcommittee on Oversight and Investigations, a
                   former LANL employee testified that retiring employees took
                   Government property with them when they left the laboratory.

                   Based upon this, the objective of our inspection was to determine the
                   adequacy of LANL internal controls for management to ensure that
                   terminating employees accounted for Government property at the time
                   of their departure. To achieve this objective, we conducted several
                   samples of transactions related to LANL employee out-processing;
                   reviewed related documents, including LANL procedural directives;
                   and interviewed numerous responsible contractor and Federal officials.

OBSERVATIONS AND   More than 40 percent of the 305 cleared and uncleared terminating
CONCLUSIONS        employees included in our sample did not follow LANL out-
                   processing procedures. Consequently, Property Administrators,
                   Classified Document Custodians, and Badge Office personnel
                   frequently did not receive timely notification that employees were
                   terminating. Given this and the results of additional sampling, we
                   concluded that the process did not provide assurance that, prior to
                   departure, LANL terminating employees:

                   •   Turned in security badges, received the required Security
                       Termination Briefing, completed the required Security
                       Termination Statement, or had their security clearances and
                       access authorizations to classified matter and/or special nuclear
                       material terminated in a timely manner. For example, of a
                       sample of 96 cleared employees who departed LANL over a
                       2-year period: 44 employees did not turn in their badges; 61




Page 1                     Security and Other Issues Related to Out-Processing
                           of Employees at Los Alamos National Laboratory
             employees did not complete the Security Termination
             Statement at the time of their departure; 21 employees retained
             their clearances in DOE’s official database anywhere from 11
             to 567 days after departure; and 1 employee retained his
             sensitive compartmented information (SCI) access
             authorization for more than 5 months after his retirement.

         •   Accounted for classified holdings, such as documents and
             classified removable electronic media (CREM), and personal
             property, such as computers and laboratory equipment. However,
             a limited review of personal property that had been assigned to
             terminated employees did not identify any unaccounted for items.

         •   Cleared the LANL Payroll Team for the purpose of stopping
             wage payments and addressing outstanding financial obligations.

         We found that the contract between the Department and LANL did
         not contain performance measures to evaluate the effectiveness of
         the LANL employee out-processing procedures. We believe such
         a mechanism is important since LANL’s termination process is
         intended, in part, to account for classified and unclassified
         Government property.

         On September 14, 2004, subsequent to completion of our
         fieldwork, LANL revised its out-processing procedures to address
         some of the concerns we raised during this inspection. The revised
         procedures have not been in place long enough for us to assess
         their effectiveness. However, under the revised procedures, the
         responsibility for out-processing has been transferred from the
         terminating employee to the applicable Line Manager (i.e., Group
         Leader or above). We also noted that the revised procedures were
         expanded to specifically include the collection, return, and
         reassignment of CREM. We believe that the Department should
         ensure that LANL incorporates recommended corrective actions
         associated with the internal control weaknesses identified in this
         report as it implements the new out-processing procedures.

         This inspection expands upon work performed by the Office of
         Inspector General at several DOE sites, which is discussed in an
         audit report entitled “Personnel Security Clearances and Badge
         Access Controls at Selected Field Locations” (DOE/IG-0582,
         January 2003). The audit found that, among other things, a
         number of employees departed LANL without surrendering their
         badges; however, only a few retained authority to access sensitive
         areas or classified material.



Page 2                                    Observations and Conclusions
Details of Findings

OUT-PROCESSING        We found that more than 40 percent of the 305 terminating
PROCEDURES            employees in our sample did not follow LANL out-processing
                      procedures. As a result, Property Administrators, Classified
                      Document Custodians, and Badge Office personnel frequently did
                      not receive timely notification that employees were terminating, and
                      key elements of the out-processing procedures were not performed
                      timely. The out-processing procedures were outlined on the LANL
                      internal web site at the Human Resources (HR) Homepage.
                      Terminating employees were required to download a Departure
                      Processing form or obtain it from the Division HR representative or
                      the HR Division office and out process with applicable LANL
                      organizations.

                      Using the Departure Processing form, regular LANL employees
                      were required to obtain the signatures of the individuals
                      responsible for 14 key elements of the termination process.
                      Student employees (i.e., those who have completed high school,
                      been accepted in an undergraduate program or above, and received
                      90-day to 1-year appointments) were required to obtain the
                      signatures of the individuals responsible for 8 key elements of the
                      termination process. Some of the signatures included on the
                      Departure Processing forms are those of Property Administrators,
                      Document Custodians, Key Custodians, Librarians, Benefits
                      Specialists, and Badge Office personnel. Their signatures were
                      intended to document that personal property, classified holdings,
                      keys, and badges were accounted for prior to an employee’s
                      departure and that security clearances and access authorizations
                      (i.e., authorizations to access classified matter or special nuclear
                      material) were properly terminated.

                      Reviewing a judgmental sample of 305 employees out of 1,668
                      employees who terminated between January 1, 2002, and
                      February 25, 2004, we identified that 129 of the associated HR files
                      were missing the Departure Processing form. In most instances, it
                      did not appear that HR had formal advance notice that these 129
                      employees were leaving the laboratory. As HR became aware of
                      these departures, it notified the following LANL organizations:
                      Security, Travel, Smart Cards (these cards allow access to the LANL
                      intranet), Benefits, Property Administration, and Payroll. This
                      notification was made using an HR Terminations Memorandum,
                      which referred to the problem identified during this review by
                      stating, “This is to assist your organization since this employee did
                      not complete the departure process.”




Page 3                                                              Details of Findings
           The HR memorandum was the first written notification of
           departure to affected organizations. However, we determined that
           the HR memoranda were often issued more than a week after an
           employee left the laboratory.

           As a result of termination notification delays, supporting
           organizations frequently did not accomplish out-processing tasks
           prior to an employee’s departure. This had what were, in our
           judgment, significant consequences, which are described in the
           following portions of this report.

Security   The process did not provide assurance that all terminating
Badges     employees turned in their security badges prior to departure. Since
           the Departure Processing form was not always used, the LANL
           Security and Safeguards Division, which is responsible for the
           collection of badges, frequently was not provided advance notice
           about terminating employees. As a result, 162 of the 1,668
           employees who terminated between January 1, 2002, and
           February 25, 2004, or approximately 10 percent, did not turn in
           their badges prior to departure. These included employees with the
           following types of badges:

           •   33 Q-cleared badges, which allow access up to top secret
               information and specified quantities and types of special
               nuclear material;

           •   11 L-cleared badges, which allow access up to secret
               information and smaller quantities and types of special nuclear
               material; and

           •   118 uncleared badges, which allow access to LANL
               unclassified facilities and areas.

           At the time of our fieldwork, entrance to certain LANL facilities
           was controlled through manual badge checks by security officers,
           not electronic means. Also, under certain circumstances, LANL
           badges allowed access to other DOE facilities. Therefore, a
           terminated employee who had retained his/her badge could
           potentially access laboratory facilities and classified information
           and materials, as well as other DOE sites. However, there was no
           practical way to readily determine if such access had, in fact,
           occurred given circumstances such as the existence of LANL
           entrance points that relied on manual badge checks.




Page 4                                                   Details of Findings
Security     There was no assurance that terminating employees received the
Clearances   required Security Termination Briefing, completed the
and Access   required Security Termination Statement, or had their security
             clearances and access authorizations terminated in a timely
             manner. The retention of security clearances combined with the
             retention of badges by terminated employees increases the
             potential for terminated employees to obtain unauthorized access
             to facilities and/or classified information after departure.

             DOE Manual (M) 470.1-1, “Safeguards and Security Awareness
             Program,” states that a Security Termination Briefing is required
             whenever access authorization has been or will be terminated.
             Security Termination Briefings are used to impress upon the
             individual his or her continuing responsibility not to disclose
             classified information. This briefing also addresses the
             individual’s obligation to return to appropriate DOE officials all
             classified documents and materials in the individual’s possession
             prior to departure.

             After the Security Termination Briefing, the terminating employee
             and the Security Specialist who conducted the briefing sign DOE
             Form (F) 5631.29, “Security Termination Statement.” This form is
             used by LANL to provide the required notification to the cognizant
             DOE Personnel Security Office of the termination of an employee.
             Based on this form, the DOE Personnel Security Office terminates
             the employee’s security clearance and access authorization in
             DOE’s Central Personnel Clearance Index (CPCI) system.

             We sampled 96 DOE Q-cleared and L-cleared employees who
             departed the laboratory during the period January 1, 2002, to
             February 25, 2004, 44 of whom had not turned in their badges.
             Of the 96 employees, we identified 61 employees who did not
             complete the Security Termination Statement at the time of their
             departure. As a result, some security clearances were not
             terminated in the CPCI system in a timely manner. Specifically,
             21 of the 61 Q-cleared and L-cleared employees who did not
             complete the Security Termination Statement retained their
             clearances in the CPCI anywhere from 11 to 567 days after their
             departure. Further, of the 21 employees, 6 had not turned in their
             security badges at the time of their departure from the laboratory.

             We found that the cognizant DOE Personnel Security Office was
             unaware that 3 of the 21 employees had terminated from the
             laboratory. The 3 employees retained active clearances ranging
             from 377 days to 567 days following their respective terminations.



Page 5                                                      Details of Findings
             The Office of Inspector General immediately notified the DOE
             Personnel Security Office of our concern, and we confirmed that
             action was taken to terminate the clearances. Among the other
             departed employees, we found that four employees had clearances
             that were active for periods ranging from approximately three
             months to nine months after termination.

             We followed up to determine whether any of the 96 departed
             employees had SCI access authorization and, if so, whether that
             authorization was terminated timely. We determined that five of
             the departed employees had SCI access authorization through
             LANL and that one of those employees retained his SCI access
             authorization for five months after retiring from LANL. We
             interviewed this former employee, and he told us that a few months
             after his retirement he took a position with a LANL subcontractor.
             He advised us that he was unaware of any need for the retention of
             his SCI access authorization after he retired from LANL and did
             not recall accessing any SCI material after his retirement. In
             addition, an official with the subcontractor told us that an SCI
             access authorization was not required as a condition of the
             individual’s employment.

Classified   There was no assurance that terminating employees accounted for
Holdings     classified holdings prior to departure. Although our limited checks
             did not identify any unaccounted for classified holdings assigned
             to terminated employees, we noted that Document Custodians
             often did not have the opportunity to reconcile classified holdings
             with these employees. We believe this increases the potential for
             unaccounted for classified holdings to be identified after an
             employee has departed and is unavailable to assist with
             reconciliation.

             It was the responsibility of the terminating employee and the
             associated Document Custodian to clear the employee’s accounts
             of all classified holdings. Since the Departure Processing form
             was not always used, Document Custodians responsible for the
             accountability of classified holdings were frequently unaware that
             employees who reasonably would be expected to have classified
             holdings were departing the laboratory. We also determined that
             although students may have authorized access to classified
             materials, the Departure Processing for Students form did not
             include a signature line for the Document Custodian.

             Of even greater concern, the out-processing procedures did not
             address the accountability of CREM when employees responsible



Page 6                                                    Details of Findings
            for the control of this material departed the laboratory.
            Specifically, we determined that the Departure Processing forms
            for both regular employees and students did not contain a specific
            out-processing signature line for CREM Custodians. As noted
            previously, LANL’s revised out-processing procedures were
            expanded to include the collection, return, and reassignment of
            CREM. Since LANL has experienced significant problems in the
            control and accountability of this material in the past, we believe
            that LANL should place special emphasis on the accountability of
            CREM during the implementation of the revised out-processing
            procedures.

Personal    There was no assurance that terminating employees accounted for
Property    personal property, such as computers and laboratory equipment,
            prior to departure. It was the responsibility of the terminating
            employee and the Property Administrator to account for all LANL
            equipment and property before an employee departed. These
            activities included determining what property items were affected,
            locating these items, obtaining reassignment guidance from
            management, reassigning the items, and performing database
            entries.

            Since the Departure Processing form was not always used,
            Property Administrators were frequently unaware that employees
            were departing the laboratory. Although our limited review did
            not identify any unaccounted for property assigned to terminated
            employees, Property Administrators frequently had to complete
            required termination activities after employees left the laboratory.
            We believe this increases the potential for unaccounted for
            property to be identified after an employee’s termination, which
            diminishes LANL’s ability to hold employees accountable for
            assigned property.

Financial   There was no assurance prior to their departure that terminating
Clearance   employees cleared the LANL Payroll Team for the purpose of
            stopping wage payments and addressing outstanding financial
            obligations. The Payroll Team was frequently unaware that
            employees departed the laboratory. We found instances where this
            resulted in overpayments and unresolved obligations. For
            example, one employee was paid for an additional week’s salary
            after his designated termination date, and four employees departed
            the laboratory owing for advanced leave.




Page 7                                                     Details of Findings
PERFORMANCE       We found that there was no mechanism identified under the LANL
MEASURES          performance objectives and measures to evaluate the effectiveness
                  of the HR termination process.

                  Our review of the contractor performance objectives and measures
                  for Fiscal Year (FY) 2004 determined that the LANL contract,
                  Appendix F, contained a performance objective that addressed the
                  effectiveness of internal controls associated with LANL HR
                  business systems. The performance objective stated “Improve or
                  maintain effective business systems and practices that safeguard
                  public assets and support mission objectives.”

                  The “LANL Implementation Guidelines for FY04 Appendix F,
                  Performance Objectives and Measures” developed by the
                  laboratory contained the evaluation basis for determining the
                  laboratory’s performance. The performance measure in this
                  document that correlates with the above performance objective
                  stated “Demonstrate effective internal business controls and
                  processes to maintain an acceptable . . . Human Resources
                  administrative systems . . . .” However, the evaluation basis only
                  addressed five HR processes: new hires, student hires, position
                  classification, start salaries, and promotional increases. The LANL
                  evaluation basis did not address the HR termination process. We
                  believe such a mechanism is important since LANL’s termination
                  process is intended, in part, to account for classified and
                  unclassified Government property.

RECOMMENDATIONS   We recommend that the Manager, Los Alamos Site Office, ensures
                  that:

                  1. LANL’s revised out-processing procedures adequately address
                     the issues identified in this report and are being appropriately
                     implemented.

                  2. LANL conducts a review of terminated employees who
                     retained their badges and/or access authorizations after their
                     official termination dates to determine if they obtained
                     unauthorized access to DOE facilities and/or classified
                     holdings.

                  3. LANL conducts a review of all employees who terminated
                     without following the appropriate out-processing procedures to
                     ensure that any CREM or classified holdings assigned to these
                     employees have been properly accounted for.




Page 8                                                          Recommendations
             4. LANL recovers badges of terminating employees, conducts
                Security Termination Briefings, completes Security
                Termination Statements, and makes timely notification to DOE
                when security clearances and access authorizations should be
                terminated.

             5. Prior to the departure of terminating employees, LANL
                accounts for all Government property assigned to the
                employees, to include personal property, classified holdings,
                and CREM.

             6. Prior to the departure of terminating employees, LANL
                reconciles outstanding financial obligations.

             7. LANL’s implementation guidelines for its performance
                objectives and measures are revised to include an evaluation of
                the HR termination process as part of the overall evaluation of
                the HR administrative system.

MANAGEMENT   In comments on our draft report, management generally agreed
COMMENTS     with our report and recommendations and indicated that corrective
             actions have been taken or initiated. However, NNSA disagreed
             with our characterization of the seriousness of the consequences
             resulting from the lack of adherence to established out-processing
             procedures, and NNSA believed it was “more accurate to state
             there is potential for unauthorized access.” Management also
             provided two comments about specific phrasing in the report.

INSPECTOR    We found management’s comments to be generally responsive to
COMMENTS     our report. However, we disagree with NNSA’s position regarding
             the seriousness of the issues raised in this report. The integrity of
             the Department’s security program is built on the premise that only
             authorized persons have access to classified and sensitive
             information.

             Regarding management’s two comments concerning specific
             phrasing in the report, we evaluated the matter and made
             appropriate changes.




Page 9                              Management and Inspector Comments
Appendix A

SCOPE AND     We conducted our inspection fieldwork between January and
METHODOLOGY   August 2004. We interviewed laboratory officials regarding
              LANL out-processing procedures and reviewed DOE and LANL
              policies, procedures, and records regarding employee terminations,
              security clearance and access authorization terminations, personal
              property, badges, classified holdings, and payroll. We also
              interviewed DOE officials regarding security clearance and access
              authorization terminations, property accountability, and
              performance measures. Documents of primary interest were:

              •   DOE M 470.1-1, “Safeguards and Security Awareness
                  Program.”

              •   DOE O 472.1C, “Personnel Security Activities.”

              •   DOE M 472.1-1B, “Personnel Security Program Manual.”

              •   DOE M 473.1-1, “Physical Protection Program Manual.”

              •   LANL Property Management Manual.

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we reviewed LANL’s performance measurement
              processes as they relate to HR business systems.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                              Scope and Methodology
Appendix B




Page 11      Management Comments
Appendix B (continued)




Page 12                  Management Comments
Appendix B (continued)




Page 13                  Management Comments
Appendix B (continued)




Page 14                  Management Comments
Appendix B (continued)




Page 15                  Management Comments
Appendix B (continued)




Page 16                  Management Comments
                                                                    IG Report No. DOE/IG-0677

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
